                                                                  Issue Date
                                                                           June 18, 2012
                                                                   
                                                                  Audit Report Number
                                                                               2012-FW-1009




TO:        David G. Pohler, Director of the San Antonio Office of Public Housing, 6JPH


FROM:      Gerald R. Kirkland,
           Regional Inspector General for Audit, Fort Worth Region, 6AGA

SUBJECT: The Gonzales, TX, Housing Authority Generally Followed Recovery Act Public
           Housing Capital Fund Requirements


                                    HIGHLIGHTS

 What We Audited and Why

             We audited the Gonzales Housing Authority’s American Recovery and
             Reinvestment Act of 2009 Public Housing Capital Fund formula grant because it
             met the Office of Inspector General’s (OIG) most recent audit plan objective to
             contribute to the oversight objectives of the Recovery Act and the San Antonio
             Office of Public Housing recommended it for audit. Our objectives were to
             determine whether the Authority (1) properly obligated and spent its formula
             grant funds, (2) properly obtained its Recovery Act contracts, and (3) accurately
             reported its activities in a timely manner.


 What We Found

             The Authority generally followed Recovery Act requirements with a minor
             exception. It (1) obligated the entire Recovery Act grant and spent all of the
             funds on eligible activities by the Recovery Act’s deadlines, (2) properly obtained
             most of its Recovery Act contracts, and (3) reported its activities accurately and in
             a timely manner. One minor error occurred when the Authority initially obligated
             funds for administrative expense but then used part of those funds for construction
           costs to renovate two vacant units, which resulted in its not obligating $7,600 by
           the deadline.

What We Recommend


           We recommend that the Director of the U. S. Department of Housing and Urban
           Development’s (HUD) San Antonio Office of Public Housing require the
           Authority to provide documentation for administrative expenses or repay HUD
           $7,600, which will be returned to the U. S. Treasury.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06 REV-4.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response


           We provided a draft report to the Authority and HUD on June 1, 2012, and
           requested a written response by June 8, 2012. We held the exit conference on
           June 8, 2012, and allowed an extension for written comments until June 11, 2012.
           The Authority provided a written response to the draft report on June 11, 2012,
           that stated it would resolve the finding or recommendation in the report. The
           complete text of the auditee’s response, along with our evaluation of that
           response, can be found in appendix B of this report.




                                            2
                           TABLE OF CONTENTS

Background and Objectives                                          4

Results of Audit
      The Authority Generally Followed Recovery Act Requirements   5

Scope and Methodology                                              7

Internal Controls                                                  8


Appendixes
   A. Schedule of Questioned Costs                                 9
   B. Auditee Comments and OIG’s Evaluation                        10




                                           3
                         BACKGROUND AND OBJECTIVES

The Gonzales Housing Authority was created by Texas law in 1951. It works with the U.S.
Department of Housing and Urban Development (HUD) to provide housing to individuals
eligible for financial assistance and operates 4 developments with 140 low-rent public housing
units and administers 42 housing choice vouchers. The Authority is governed by a board of
commissioners appointed by the mayor of Gonzales. It receives capital funds annually by
formula grant from HUD and may use its capital funds for development, financing,
modernization, and management improvements for its housing developments.

On February 17, 2009, the President signed the American Recovery and Reinvestment Act of
2009 into law.1 The Recovery Act provided $4 billion for public housing agencies to carry out
capital and management activities, including the modernization and development of housing. It
allocated $3 billion for formula grants and $1 billion for competitive grants. The Recovery Act
required public housing agencies to obligate 100 percent of the funds within 1 year of the date on
which funds became available to the agency for obligation and expend 60 percent within 2 years
and 100 percent within 3 years of such date.

HUD allocated $249,839 to the Authority for one Recovery Act Capital Fund formula grant.
HUD made the formula grant available to the Authority on March 18, 2009, resulting in a
statutory obligation deadline of March 17, 2010. If it failed to comply with the obligation
deadline, HUD was required to recapture those obligations that did not meet the deadline and
return the funds to the U.S. Treasury for the sole purpose of deficit reduction. 2

HUD required the Authority to use its Recovery Act formula grant on eligible activities. The
Authority included these activities in its HUD-approved annual statement and 5-year action plan.
The Authority and HUD determined the improvements needed for long-term physical and social
viability to be included in the plans.

Our objectives were to determine whether the Authority (1) properly obligated and spent its
formula grant funds, (2) properly obtained its construction services contracts, and (3) accurately
reported its activities in a timely manner.




1
    Public Law 111-5
2
    The Dodd-Frank Wall Street Reform and Consumer Protection Act (Public Law 111-203) amended the
    Recovery Act, requiring recaptured funds to be returned to the U.S. Treasury and dedicated for the sole purpose
    of deficit reduction.

                                                        4
                                    RESULTS OF AUDIT

Finding: The Authority Generally Followed Recovery Act
Requirements
The Authority (1) obligated the entire Recovery Act grant and spent all of the funds on eligible
activities by the Recovery Act’s deadlines, (2) properly obtained most of its Recovery Act
contracts, and (3) reported its activities accurately and in a timely manner. One minor late
obligation and improper procurement occurred because the Authority initially obligated funds for
administrative expense but then used part of those funds for construction costs to renovate two
vacant units, which resulted in its not obligating $7,600 by the deadline.


    The Authority Properly
    Obligated and Spent All of the
    Grant


                  The Authority properly obligated and spent its entire $249,839 grant by the March
                  17, 2010, deadline. One minor late obligation occurred because the Authority
                  initially obligated funds for administrative expense but then used part of those
                  funds for construction costs to renovate two vacant units. Administrative
                  expenses are for administrative salaries, legal, benefit contributions, travel, and
                  telephone.3 However, the Authority used the obligated administrative expense to
                  rehabilitate two units and paid $7,600 on March 31, 2011, for the work.

                  HUD improperly allowed the Authority to substitute the renovation expenditures
                  for the Recovery Act funds obligated for administrative expense. This condition
                  occurred because HUD warned the Authority of the approaching expenditure
                  deadline, and its executive director informed HUD of the recently renovated units.
                  HUD then approved the use of the Recovery Act funds for those repairs. As a
                  result, the Authority spent all of its Recovery Act funds by the expenditure
                  deadline but did not obligate the $7,600 by the obligation deadline.


    The Authority Properly
    Obtained Most of Its Recovery
    Act Contracts

                  The Authority properly obtained most of its Recovery Act contracts, providing
                  full and open competition. It followed its procurement policies, which complied
                  with Recovery Act requirements. Its contract binder contained the newspaper
                  advertisements, Davis-Bacon wage rate determination, construction
3
      HUD Guidebook 7510.1, Chapter 4 accounts 1410

                                                      5
           specifications, sign-in sheet, meeting minutes, bid analysis, cost-price analysis,
           environmental certification, and board minutes awarding the contracts. However,
           the Authority did not properly follow procurement requirements when it
           renovated two vacant units, which cost $7,600. HUD was aware of this issue and
           was addressing it before the audit started.

The Authority Properly
Reported Its Activities

           The Authority reported its activities accurately except for the two renovated units
           and in a timely manner. It reported Recovery Act information in its 2009 annual
           statement, its 5-year action plan, its Line of Credit (LOCCS) and Recovery.com
           in an accurate and timely manner.

           The Authority accurately reported in LOCCS its approved project budget as
           follows:

                                Development               Recorded
                                  account                in LOCCS
                           1410 Administration             $ 15,266
                           1460 Dwelling structures          234,573
                           Total grant                     $ 249,839




           The Authority reported in its 5-year action plan all of the activities it undertook
           except for the two renovated units with Recovery Act funds, including the
           replacement of broken sidewalks and curbing, perimeter fencing, new water cut-
           offs, and clotheslines. Further, the Authority’s Recovery.com page accurately
           described the grant amount, what was accomplished, where the work was done,
           and the project status (complete).

Recommendations


           We recommend that the Director of the San Antonio Office of Public Housing
           require the Authority to

           1A. Provide documentation for administrative expenses or repay $7,600 in 2009
               Recovery Act funds to HUD, which will return the funds to the U.S.Treasury.




                                             6
                        SCOPE AND METHODOLOGY

We conducted our audit work at the Authority’s administrative offices in Gonzales, TX, the San
Antonio Office of Public Housing, and the HUD Office of Inspector General’s (OIG) offices in
San Antonio and Fort Worth, TX, between February 21 and April 17, 2012. The audit generally
covered March 18, 2009, to March 19, 2012.

To accomplish our objective, we performed the following steps as they related to the Authority’s
Recovery Act Capital Fund formula grant:

      Reviewed relevant laws, regulations, and HUD guidance.
      Reviewed the Authority’s board of commissioners meeting minutes to confirm that the
       Authority had adopted a Recovery Act-compliant procurement policy.
      Reviewed the Authority’s audited financial statements for fiscal year 2011.
      Reviewed the Authority’s Recovery Act Capital Fund formula grant agreement, annual
       statement, and 5-year action plan.
      Reviewed the Authority’s procurement records and environmental certification.
      Traced obligations and project costs from procurement through HUD’s Line of Credit
       Control System drawdown of funds for five contracts procured with Recovery Act
       formula grant funds.
      Reviewed 99.5 percent of the expenditures.
      Interviewed the Authority’s executive director to determine general procedures and
       specifics concerning the minor finding.
      Verified that the Authority’s Recovery Act reporting was accurate and timely.
      Conducted site visits of and photographed representative improvements.
      Interviewed HUD Office of Public Housing staff in San Antonio, TX.

We did not assess the reliability of computer-processed data because we based our conclusions
on information in hardcopy files.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




                                               7
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

        Effectiveness and efficiency of operations,
        Reliability of financial reporting, and
        Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.




 Relevant Internal Controls


               We determined that the following internal controls were relevant to our audit
               objectives:

                  Controls to ensure that the Authority followed procurement requirements.
                  Controls to ensure that payments were properly authorized and goods and
                   services were received.
                  Controls to ensure that the Authority met Recovery Act and HUD reporting
                   requirements.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

               We evaluated internal controls related to the audit objectives in accordance with
               generally accepted government auditing standards. Our evaluation of internal
               controls was not designed to provide assurance on the effectiveness of the internal
               control structure as a whole. Accordingly, we do not express an opinion on the
               effectiveness of the Authority’s internal control.



                                                 8
                                   APPENDIXES

Appendix A

                SCHEDULE OF QUESTIONED COSTS

                           Recommendation            Ineligible 1/
                                  number
                                         1A               $7,600



1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.




                                              9
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation                   Auditee Comments

                        June 11, 2012

              To: Theresa Carroll, CPA
                  Assistant Regional Inspector General
                  HUD OIG, Region VI,
                  Forth Worth, Texas


              From: Jeanette Conquest
                   Executive Director
                   Gonzales Housing Authority
                   Gonzales, Texas

              Re: OIG’s Audit of 2009 ARRA Capital Fund Program


              Gonzales Housing Authority acknowledges receipt of Audit Draft. GHA
Comment 1
              will comply within time allotted to resolve any Audit Findings or
              recommendations as set forth in HUD Handbook 2000.06 REV-4.




                                         10
                         OIG Evaluation of Auditee Comments

Comment 1   The Authority stated that it will resolve the finding or recommendation.




                                            11
